<html>
<title> - TO AUTHORIZE THE PRESIDENT TO EXTEND THE TERM OF THE AGREEMENT FOR COOPERATION BETWEEN THE GOVERNMENT OF THE UNITED STATES OF AMERICA AND THE GOVERNMENT OF THE REPUBLIC OF KOREA CONCERNING CIVIL USES OF NUCLEAR ENERGY FOR A PERIOD NOT TO EXCEED MARCH 19, 2016; EXPORT PROMOTION REFORM ACT; STATE TRADE COORDINATION ACT; AND ORGANIZATION OF AMERICAN STATES REVITALIZATION AND REFORM ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







 
  TO AUTHORIZE THE PRESIDENT TO EXTEND THE TERM OF THE AGREEMENT FOR 
COOPERATION BETWEEN THE GOVERNMENT OF THE UNITED STATES OF AMERICA AND 
   THE GOVERNMENT OF THE REPUBLIC OF KOREA CONCERNING CIVIL USES OF 
   NUCLEAR ENERGY FOR A PERIOD NOT TO EXCEED MARCH 19, 2016; EXPORT 
PROMOTION REFORM ACT; STATE TRADE COORDINATION ACT; AND ORGANIZATION OF 
         AMERICAN STATES REVITALIZATION AND REFORM ACT OF 2013

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

               H.R. 2449, H.R. 1409, H.R. 1926 and S. 793

                               __________

                             JULY 24, 2013

                               __________

                           Serial No. 113-49

                               __________

        Printed for the use of the Committee on Foreign Affairs
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                   U.S. GOVERNMENT PRINING OFFICE 
                         
  82-146PDF               WASHINGTON : 2013
                                 
  -------------------------------------------------------------------------- 
  For sale by the Superintendent of Documents, U.S. Government Printing Office
  Internet:bookstore.gpo.gov  Phone:toll free (866)512-1800; DC area (202)512-1800
    Fax:(202)512-2104 Mail Stop IDCC Washington,DC 20402-001
                                                            
                         
                              
                              
                             
                                 
                              
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2449, To authorize the President to extend the term of the 
  Agreement for Cooperation between the Government of the United 
  States of America and the Government of the Republic of Korea 
  Concerning Civil Uses of Nuclear Energy for a period not to 
  exceed March 19, 2016..........................................     2
H.R. 1409, To amend the Export Enhancement Act of 1988 to further 
  enhance the promotion of exports of United States goods and 
  services, and for other purposes...............................     4
  Amendment in the nature of a substitute to H.R. 1409 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    10
H.R. 1926, To further enhance the promotion of exports of United 
  States goods and services, and for other purposes..............    18
  Amendment in the nature of a substitute to H.R. 1926 offered by 
    the Honorable Edward R. Royce................................    24
S. 793, To support revitalization and reform of the Organization 
  of American States, and for other purposes.....................    29
  Amendment in the nature of a substitute to S. 793 offered by 
    the Honorable Edward R. Royce................................    37
  Amendment to the amendment in the nature of a substitute to S. 
    793 offered by the Honorable Edward R. Royce.................    45

                                APPENDIX

Markup notice....................................................    58
Markup minutes...................................................    59
Markup summary...................................................    61
  TO AUTHORIZE THE PRESIDENT TO EXTEND THE TERM OF THE AGREEMENT FOR 
COOPERATION BETWEEN THE GOVERNMENT OF THE UNITED STATES OF AMERICA AND 
   THE GOVERNMENT OF THE REPUBLIC OF KOREA CONCERNING CIVIL USES OF 
   NUCLEAR ENERGY FOR A PERIOD NOT TO EXCEED MARCH 19, 2016; EXPORT 
PROMOTION REFORM ACT; STATE TRADE COORDINATION ACT; AND ORGANIZATION OF 
         AMERICAN STATES REVITALIZATION AND REFORM ACT OF 2013

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. I will 
ask members to take their seats.
    And pursuant to notice, we meet today to mark up four 
bipartisan measures. As all members were notified on Monday, to 
expedite our consideration of these noncontroversial items, we 
will take up en bloc the text previously provided to every 
member's offices, which you now have before you on your desk.
    And so without objection, the following items are 
considered as read and will be considered en bloc: H.R. 2449, 
authorizing an extension of the agreement between the United 
States and South Korea on civil nuclear cooperation; H.R. 1409, 
the Export Promotion Reform Act and the bipartisan amendment in 
the nature of a substitute offered by the Chair, which also 
incorporates the text approved by the Subcommittee on 
Terrorism, Nonproliferation, and Trade; H.R. 1926, the State 
Trade Coordination Act and the bipartisan amendment in the 
nature of a substitute offered by the Chair, which incorporates 
the text approved, again, by the Subcommittee on Terrorism, 
Nonproliferation, and Trade; and S. 793, the Organization of 
American States Revitalization and Reform Act, the bipartisan 
amendment in the nature of a substitute offered on behalf of 
myself and Mr. Engel, and the brief amendment to that amendment 
offered by the Chair.
    [The information referred to follows:]<greek-l>H.R. 
2449 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1409 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1409 ANS deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1926 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 1926 ANS deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>S. 793 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>S. 793 ANS deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>S. 793 amendment deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. All members may have 5 days to submit 
statements for the record on any of today's measures. And after 
recognizing myself and the ranking member for brief opening 
remarks, I will be glad to recognize any committee members 
seeking recognition to speak on any of these measures.
    So today the committee is marking up two export promotion 
bills, H.R. 1409 and H.R. 1926, which aim to strengthen the 
export promotion activities to help domestic job growth at 
little or no net cost. And I would like to thank the chairman 
of the Subcommittee on Terrorism, Nonproliferation, and Trade, 
Congressman Ted Poe, for his leadership in marking up these 
bills last month.
    Of the 30 million companies doing business in the United 
States today, less than 1 percent export goods or export 
services abroad. That is just 1 percent. And this is 
significantly lower than all other developed countries. 
American businesses provide high-quality goods and services and 
can and should be more competitive on the world market. Most 
important are trade agreements that knock down trade barriers, 
and we can do some other things, too.
    And with regard to H.R. 1409, the Export Promotion Reform 
Act, I would like to recognize Ranking Member Engel for his 
work to strengthen and rationalize U.S. Government efforts to 
increase American exports. And I would like to thank him for 
collaborating with our colleagues on the Small Business 
Committee to help ensure that America's small and medium-sized 
businesses benefit from this legislation.
    The Export Promotion Act requires the Secretary of Commerce 
to assess global markets and deploy foreign commercial officers 
where there is the greatest potential for export promotion. 
This legislation is about smartly deploying our resources. It 
would further require evaluations of those foreign commercial 
officers on the basis of the effectiveness of their export 
promotion work, and that, of course, would promote 
accountability in this.
    These are commonsense measures that can help our Government 
focus on the activities that have the largest impact on our 
economy.
    H.R. 1926 is the State Trade Coordination Act. And I would 
like to commend Asia Subcommittee Chairman Chabot for his work 
to enhance U.S. exports by requiring the integration of State 
trade promotion agencies into Federal efforts.
    The State Trade Coordination Act would require at least one 
representative from the State-based trade promotion agency to 
sit on the Department of Commerce's Interagency Export 
Promotion Task Force. The act directs the Department to 
integrate the strategies of the State trade promotion agencies 
into overall Federal trade promotion efforts, and this improved 
coordination should result in a more efficient delivery of 
services to small businesses, whose efforts to export are often 
thwarted by complicated export regulations and ever-changing 
tariff and nontariff barriers.
    And I would like to note in passing Mr. Yoho's interest in 
an additional trade bill that has been referred to the 
subcommittee, and that is Representative Tipton's H.R. 1916. We 
will give 1916 a careful look moving ahead.
    Moving on to H.R. 2449. For more than six decades, the U.S. 
and South Korea forged a strong political, military, and 
economic alliance. A key part of our relationship is peaceful 
nuclear cooperation, especially with regard to energy.
    The nuclear cooperation agreement that has been in place 
for 40 years will expire in March 2014, but the negotiations 
for a new agreement have not yet been completed. To address 
this situation I, along with Ranking Member Engel and several 
other members of the committee, introduced this bill to extend 
the existing agreement for 2 years until March 2016.
    This legislation makes no other change to the existing 
agreement, but it will ensure that U.S. businesses are able to 
continue to supply parts and services to South Korea, and will 
enable the negotiators to focus on substance rather than the 
clock in striking a long-term agreement.
    And then lastly, the Organization of American States 
Revitalization and Reform Act, that is Senate bill 793. This 
seeks to push the OAS to refocus on its core principles of 
promoting democratic governance and institutions and resolving 
regional disputes. Over time the OAS has accepted too many 
mandates from its member states, resulting in a loss of 
institutional focus, which, in turn, has reduced the 
organization's effectiveness. This bipartisan bill requires the 
Secretary of State to submit a strategy to Congress that 
identifies a path toward the adoption of necessary reforms that 
prioritize and reinforce the OAS' core competencies.
    And I want to commend Ranking Member Engel for his 
leadership in helping craft the Royce-Engel amendment in the 
nature of a substitute. Our amendment seeks to strengthen the 
bill, adding that it is in the interests of the U.S. and, 
frankly, in the interests of OAS member states and a modernized 
OAS to move toward an assessed fee structure that establishes 
that no member state pays more than 50 percent of the 
organization's assessed fees.
    I now recognize my good friend, the ranking member, for his 
remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for holding 
this markup and for advancing these important pieces of 
legislation.
    First, Mr. Chairman, I am pleased to be the lead Democratic 
cosponsor of H.R. 2449, your bill to extend the current U.S.-
South Korea civil nuclear cooperation agreement until 2016. The 
legislation will provide 2 additional years for our two nations 
to complete negotiations on extending the existing agreement, 
which is set to expire early next year. This will prevent an 
interruption in our peaceful nuclear cooperation which would 
have a negative impact on our bilateral relationship and on 
U.S. businesses.
    This legislation enjoys strong bipartisan support, and I 
urge my colleagues to support the measure. You and I traveled 
together to South Korea a few months ago, Mr. Chairman, and we 
both support and understand how important the bonds are between 
our two countries, and this will help to enhance that.
    I also urge my colleagues to support H.R. 1409, the Export 
Promotion Reform Act. This bill, which I authored, is based on 
recommendations from the GAO and numerous outside groups. It 
would benefit many of the Nation's 293,000 exporting firms, 
including more than 40,000 firms in my home State of New York, 
more than 97 percent of which are small- and medium-sized 
businesses. And by enhancing export opportunities, it would 
lead to the creation of new jobs here in the United States.
    Specifically, H.R. 1409 would make three key changes. 
Firstly, it would require the Secretary of Commerce to identify 
the best opportunities for increased U.S. exports and then 
redeploy U.S. commercial service personnel to help our 
exporters find customers to deal with foreign customs and other 
trade rules and act as advocates with foreign governments.
    Secondly, it would strengthen the authority of the Trade 
Promotion Coordinating Committee to review annual export 
promotion budget submissions and coordinate the export 
promotion activities across the government.
    And thirdly, it would require our Ambassadors to develop 
commercial diplomacy plans aimed at increasing U.S. exports.
    I would like to thank Chairman Royce along with 
subcommittee Chairman Poe and Ranking Member Sherman for their 
work in moving H.R. 1409 forward.
    H.R. 1926, introduced by our colleague Congressman Chabot 
as the chairman of the Asia Subcommittee, would strengthen the 
coordination between State trade development agencies and the 
Federal Government. This legislation is complementary to my 
export promotion bill, and I look forward to working with 
Representative Chabot as our two measures move through the 
House and Senate.
    Finally, I would like to say a few words about Senate 793, 
introduced by Senator Bob Menendez, the chairman of the Senate 
Foreign Relations Committee and a longtime member of our 
committee when he was in the House.
    The OAS remains the premier regional forum for the 
countries of the Americas to conduct multilateral business. The 
bill before us today seeks to support the organization in 
particular with respect to democracy promotion and protection 
of human rights.
    I would like to thank Chairman Royce for working with me to 
strengthen the bill. Our amendment would require the State 
Department to examine ways to ensure that no OAS member state 
pays more than 50 percent of the regular budget, and that 
obviously affects the United States.
    I believe a modernized OAS would benefit from a more 
egalitarian fee structure. This amendment asks the State 
Department to lay out a road map to achieve it, and hopefully 
opens up that conversation with our fellow member states in the 
OAS in the spirit of consensus and partnership.
    Again, thank you to Chairman Royce for working in a truly 
bipartisan manner on this bill and on the markup as a whole. 
And as I said before, it has been a pleasure to work with the 
chairman. I think that this committee has shown once again that 
it is the most bipartisan committee in the Congress, and I am 
very proud of that.
    I yield back.
    Chairman Royce. I thank my friend for his remarks and for 
his contribution to this legislation. And I would ask if any of 
the members would like to speak.
    At this time I will go to Ileana Ros-Lehtinen, chairman of 
The Middle East and North Africa Subcommittee.
    Ms. Ros-Lehtinen. Thank you so much. First, thank you, 
Chairman Royce, for convening this markup to consider four 
important bills. And I am honored to cosponsor your bill, Mr. 
Chairman, to extend the term of the agreement for cooperation 
with South Korea concerning civil uses of nuclear energy.
    South Korea is one of our strongest allies in the region 
and continues to be under the threat of the Pyongyang regime. 
It is vital that we send the message to the North Korean 
dictatorship that our strong partnership with South Korea will 
continue to be strengthened under the ideals of freedom and 
democracy.
    Second, I would like to thank Ranking Member Engel for 
bringing forward his bill to improve our export policies. We 
must advance policies that support American manufacturing in 
order to bolster private investment and create more jobs in our 
Nation. At the same time, we must balance our economic 
interests with our national security interests. We must 
strengthen our controls so that we can prevent terrorists and 
rogue regimes from acquiring our military technologies and 
sensitive information.
    I am also pleased to be a cosponsor of Mr. Chabot's bill, 
seeking to develop a comprehensive plan to integrate the 
resources and strategies of State trade promotion agencies into 
the overall Federal trade promotion programs. This bill is 
crucial in order to develop real and concrete metrics to 
improve transparency and accountability with State promotion 
agencies.
    Lastly, I would like to commend my dear friends Senators 
Menendez and Rubio, who, along with Senators Corker and Udall, 
brought forth an important bipartisan bill to reform a wasted 
agency, which is the Organization of American States.
    I remain extremely disappointed that the OAS continues to 
fail to live up to its obligations to support the respect for 
human rights and uphold democratic principles. The OAS wastes 
time attacking our Nation and discussing issues that are of no 
relevance to its charter, all the while we in the United States 
contribute approximately 60 percent of the this bloated OAS 
budget.
    For example, 2 weeks ago the OAS met regarding Edward 
Snowden and the Evo Morales plane, and the Secretary General 
issued a press release stating, and I quote, ``It is very clear 
that this is an event that goes beyond the explanations that 
have been given here. This incident leaves a wound, and the 
best way to heal that wound, to mend that wound, is to know 
what really happened, what really took place.'' What a waste.
    What about the illegitimate elections in Venezuela? What 
about the illegitimate elections in Nicaragua? And are we to 
expect a similar statement calling for investigations regarding 
the North Korean-flagged ship that left from Cuba to North 
Korea with missile equipment in clear violation of several U.N. 
Security Council resolutions? And we thank the Government of 
Panama for stopping that illicit shipment. What about the 
continued human rights abuses against prodemocracy advocates in 
Cuba?
    The OAS remains silent on all of these important topics, 
fails to live up to any of its obligations, and does not hold 
accountable any despotic regime that oppresses millions of 
people within our hemisphere. So I fully support reforming the 
OAS, changing its funding stream by moving the dollars from 
assessed contributions to voluntary contributions in order to 
strengthen our mission at the U.S. and ensuring that U.S. 
taxpayer dollars are put to good use and no longer go to waste, 
as they are in the OAS right now.
    Thank you, Mr. Chairman.
    Chairman Royce. I thank the gentlelady.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, thank you.
    In the spirit of bipartisanship, I certainly want to 
commend you and our ranking member, Mr. Engel, for your 
leadership and your sponsorships of this very important 
legislation. Specifically, I also want to commend my colleague, 
the chairman of our Asia Pacific Subcommittee, Chairman Chabot, 
for his authorship of H.R. 1926, to better facilitate our 
export capabilities with countries in dealing with the 
Department of Commerce.
    Certainly, as alluded to earlier by our colleague, Mr. 
Engel, Senate bill 793, the chairman of the Foreign Relations 
Committee Mr. Menendez, who is a former member of our 
committee, I certainly commend him for his initiative and 
leadership in trying to make better improvements in the OAS 
organization, and I believe these pieces of legislation will go 
a long way in helping in the interests of our country.
    I thank you, and I yield back.
    Chairman Royce. I thank the gentleman.
    We go now to Mr. Smith, the chairman of the Africa, Global 
Health, Human Rights, and International Organizations 
Subcommittee.
    On to Mr. Rohrabacher, chairman of the Europe, Eurasia, and 
Emerging Threats Subcommittee.
    Mr. Rohrabacher. Congratulations, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Okay. Mr. Sherman, the ranking member on the Terrorism 
Subcommittee. Go ahead.
    Mr. Sherman. I join with the ranking member's observation 
that this is perhaps the most bipartisan committee in Congress 
and commend the chairman and the ranking member for that being 
the case.
    I support the passage of all four bills before us, and I 
have cosponsored the two export promotion bills that are on the 
agenda today. Both these members came through the Terrorism, 
Nonproliferation, and Trade Subcommittee, on which I serve as 
ranking member.
    Given the very extensive export promotion activities of our 
competitors, it is critical that we have effective commercial 
diplomacy, and the two export promotion bills move us in that 
direction.
    I disagree with the chair when he points us in the 
direction of more free trade agreements under the policies that 
have given us the free trade agreements we have now. Our last 
20 years of trade policy have coincided with an ever-worsening 
trade deficit. But the chairman and I both agree that we need 
export promotion diplomacy, and that the two bills before us 
will help achieve that.
    In particular, the measure will make a number of changes to 
the operation and planning procedures of the multiagency Trade 
Promotion Coordination Committee and provide for State trade 
promotion agency representation on that committee. The GAO has 
recommended our export promotion activities be better organized 
across disparate agencies, and these two bills are a good step 
in that direction.
    I join with the other speakers in support of S. 793 
because, among other things, we should not be paying over half 
the dues at the OAS while all the other countries in the 
Hemisphere pick up less than the other half.
    Finally, I would like to discuss H.R. 2449, which would 
extend the expiring U.S.-South Korea nuclear cooperation 
agreement for 2 years, in effect kicking the can down the road 
another 2 years. The two governments have been negotiating a 
long-term extension of the agreement. They have failed to reach 
accord after 3 years of work. And we certainly wish them 
success as they work for the next 2 years, assuming this bill 
is able to clear all the other hurdles and become law. But we 
do need to give them those additional 2 years. We had joint 
hearings with the Asia Subcommittee and the Terrorism, 
Nonproliferation, and Trade Subcommittee on June 27, where we 
learned the importance of providing this 2-year extension. And 
I would like to make two points about our nuclear cooperation 
with South Korea.
    First, cooperation in commerce with foreign nations can be 
sensitive, but especially when it involves nuclear technology. 
We have sold reactors to South Korea, we transferred technology 
to South Korea, and that allowed them to develop their own 
reactors based on American technology.
    South Korea now markets its competing reactors abroad. They 
have won the contract for the UAE. The two consortia with the 
greatest American presence, GE-Hitachi on the one hand and 
Westinghouse, which is now owned by Toshiba, would beat on 
price. And the reason South Korea was an effective competitor 
was because of our transfer of technology.
    This highlights a greater concern I have, and that is that 
the transfer of technology from Westinghouse to China, 
Westinghouse wanted to sell four reactors to China, China 
demanded a massive transfer of technology. Now China is 
marketing a reactor based on Westinghouse technology. That will 
raise substantial nonproliferation concerns that we would not 
have if our competitors were our friends, the Japanese, French, 
Koreans, and others.
    The second point I would like to make is that a long-term 
extension, a One-Two-Three agreement with Seoul, the hang-up is 
that the South Koreans would like advance consent to reprocess 
American-origin spent fuels in a process known as 
pyroprocessing. Experts disagree about the proliferation of 
pyroprocessing, with some, including the South Korean 
Government, arguing that it is not really reprocessing at all 
since the plutonium has never fully separated from the other 
elements. The United States Government has quite correctly 
taken the line that pyroprocessing is, in fact, reprocessing 
because it could lead to the separation of weapons-usable 
plutonium. South Korea is among our closest allies, but the 
administration is quite correct not to yield on this advance 
consent point, and I urge them to stay firm on this issue.
    And I yield back.
    Chairman Royce. I thank the gentleman.
    We now go to Judge Poe, chairman of the Terrorism, 
Nonproliferation, and Trade Subcommittee.
    Mr. Poe. Thank you, Mr. Chairman.
    Finding new trading partners and ensuring that American 
goods and services reach new markets is a way to help promote 
the American economy.
    In June, my Subcommittee on Terrorism, Nonproliferation, 
and Trade marked up two job-promoting bills. H.R. 1409 requires 
the Commerce Department to conduct an assessment of overseas 
markets that would be ideal destinations for U.S. goods and 
services. H.R. 1926 helps promote coordination between State 
and Federal Governments so that small businesses all around 
America can start getting the support and assistance from Uncle 
Sam they deserve. I want to thank the ranking member, Mr. 
Sherman, for his work on both of these pieces of legislation.
    Ninety-five percent of the world's consumers live outside 
of the United States. American exports are primed and ready to 
take advantage of the global market. I support these bills, and 
I urge my colleagues to do the same.
    I also support the chairman's bill, H.R. 2449. I cochaired 
a hearing on the extension of the civilian nuclear energy 
agreement with South Korea in June with Chairman Chabot. The 
U.S. and the Republic of Korea partnership is one of the most 
valued and meaningful relationships we have with a foreign 
country. It is a unique relationship because our Nations have 
shed blood together on the same soil. So it is of economic, 
political, and historical importance.
    H.R. 2449 authorizes the President to extend the term of 
the agreement for cooperation between our two countries until 
March 19, 2016. My hope is that both of our countries will work 
through some of the more complicated challenges and strike an 
agreement well before 2016. Ambassador Countryman testified at 
our subcommittee hearing that we have made significant progress 
since the talks began in 2010, but there is still a lot to be 
done. I think given the special nature of the relationship we 
have with South Korea, we owe it to ourselves, and really the 
Koreans to give us more time to figure this out.
    I want to thank the chairman, and I yield back.
    Chairman Royce. I thank the gentleman. Other members 
seeking recognition?
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. I want to thank you, 
and I want to thank the ranking member.
    I am proud of the fact that I am a member of a committee 
that works on a bipartisan basis on some of the most important 
issues, and I strongly support the four amendments that are 
here.
    And certainly I especially want to associate myself with 
the words of former Chairman Ileana Ros-Lehtinen regarding the 
OAS. Certainly the OAS is very silent when it comes to many of 
the abuses in the region, but they are very vocal when it comes 
to criticizing this country. So I especially support Senator 
Menendez's effort to make sure that 50 percent of the 
organization's assessed fees are paid by members, but more than 
50 percent. So certainly I thank you for that.
    Chairman Royce. We thank the gentleman.
    We go now to Mr. Chabot, the chairman of the Asia 
Subcommittee.
    Mr. Chabot. Thank you, Mr. Chairman.
    I would like to speak very briefly on behalf of H.R. 1926 
and thank some of the members who said nice things about the 
bill prior to my arrival.
    Last year, U.S. international trade totaled $4.9 trillion. 
This flow of goods and services supported nearly 10 million 
American jobs. In my district, the greater Cincinnati area, 
exports reached record levels, topping $20 billion.
    As great as some of these numbers seem, there is no 
question that we can do better. Currently only 1 percent of all 
small businesses participate in the export process, yet these 
small firms still make up 97 percent of all exporting firms. 
Can you imagine if 2 or 3 percent of small businesses exported? 
We would experience tremendous economic growth and job 
creation. Therefore, we need to do everything possible to make 
the export process simple, straightforward, and accessible to 
all businesses.
    One thing that is holding America back is the lack of 
coordination between the Federal Government and the States. To 
date there are over 20 Federal trade agencies and even more 
State trade agencies that try to assist businesses through the 
export process. While all these different entities are well 
intentioned, they quickly add to the complexity of the export 
process.
    The present lack of coordination between these groups is 
creating inefficiencies that ultimately undermine our national 
trade goals. This legislation would address those challenges by 
facilitating better collaboration between these groups. The 
State Trade Coordination Act gives States a voice where they 
currently don't have one in crafting our national export 
tragedy. Presently States are not represented on the Trade 
Promotion Coordinating Committee, which is the primary board in 
charge of determining our trade goals. This bill would give 
them a seat at the table.
    This bill will also better inform the Federal Government's 
trade policy by having the Secretary of Commerce work with 
States to develop individual State strategies and incorporate 
those plans into the Federal strategy. States are one of the 
most important actors in our trade discussions because they are 
more able to account for their industries and resources than 
the Federal Government. They also have a much clearer 
understanding of the businesses in their economic landscape. By 
including States in our trade discussions, we will facilitate 
the selling of more American-made goods that in turn support 
more American jobs.
    I want to thank the chairman and those involved in this 
legislation for considering the bill. I ask for its passage 
immediately.
    I yield back. Thank you.
    Chairman Royce. I thank the gentleman.
    Anyone else seeking recognition?
    Karen Bass, Congresswoman.
    Ms. Bass. Thank you, Chairman Royce and Ranking Member 
Engel. Once again, I want to commend you on your leadership and 
for moving today's bills through the committee.
    While I offer my support to the legislation before the 
committee, I did want to make specific reference to H.R. 1409, 
the Export Promotion Reform Act, which I look forward to 
cosponsoring.
    As you are well aware, the Africa Subcommittee on several 
occasions addressed the economic opportunities that exist 
throughout the African Continent. We know that for more than a 
decade now, six of the world's ten fastest-growing economies 
have been found in sub-Saharan Africa. Despite this fact being 
referenced before this very committee by Secretaries of State 
Clinton and Kerry, former Assistant Secretary for African 
Affairs Johnny Carson and many others, there are only 7 foreign 
commercial service officers for sub-Saharan Africa's 48 
countries.
    For a continent of over 1 billion people, where youth are 
not only eager, but hungry to become global consumers, there is 
a real need to reevaluate our engagement with Africa. We know 
our strengths as a Nation and our private sector's comparative 
advantage. More so than any other foreign investors, the added 
significance of greater U.S. investment in the continent is 
that many American companies have a well-earned reputation not 
only for their products and services, but for their commitment 
to the training of host-country nationals in management 
training programs. This approach helps to address the youth 
bulge experienced by many countries on the continent and speaks 
to a growing partnership with Africa. And above all, increased 
engagement with Africa will create jobs here in America. 
Africa's economic growth can be mutually beneficial 
opportunity, but only if we fully engage.
    Thank you, and I yield back my time.
    Chairman Royce. Thank you very much, Congresswoman. Do any 
other members seek recognition?
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    I want to deeply thank you for taking up 2449 before the 
full committee. This is an important measure that I am fully 
support of its easy and timely passage.
    For 60 years the alliance between the United States and the 
Republic of Korea has brought stability, security, and 
prosperity to the Korean Peninsula and to the Asian-Pacific 
region. Recently the U.S.-Korean Free Trade Agreement has 
demonstrated our mutual commitment of shared future economic 
growth and prosperity. Trade between our countries totaled 
around $100 billion in 2012 and is expected to grow 
significantly in the coming years because of liberalized trade 
between our two nations.
    It is not to say that we don't face our challenges on the 
Korean Peninsula and in the wider region. North Korea's nuclear 
and ballistic missiles program and its repeated provocations 
pose grave threats to the peace and stability of the area. The 
international community must continue to insist that North 
Korea adheres to its international obligations and commitments.
    I would like to briefly discuss an extension of the 
existing bilateral civilian nuclear cooperation agreement, 
better known as the One-Two-Three. As an original cosponsor of 
this bill, I fully support the 2-year extension that has been 
agreed to in principle by negotiators from the U.S. and the 
Republic of Korea. While substantial progress has been made by 
the negotiators, more time is needed to properly complete a new 
agreement that recognizes both our countries' status as global 
leaders in nuclear energy. I agree with Assistant Secretary 
Countryman's testimony that swift passage of this 2-year 
extension would give both our countries confidence that 
cooperation between our two Nations will continue smoothly. So 
I encourage this committee and Congress to work quickly on 
passing the 2-year extension.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Are other members seeking recognition?
    Mr. Schneider.
    Mr. Schneider. Thank you, Mr. Chairman, for the time.
    I would also like to thank both the chair and ranking 
member for working with me to include important language into 
H.R. 1926 which will help to enhance promotion of exports from 
States like Illinois into the global economy.
    The Department of Commerce currently utilizes district 
export councils to promote local companies abroad. The 
Schneider amendment included in this underlying legislation 
will encourage the Department of Commerce to further coordinate 
their export promotion activities with State trade promotion 
agencies in order to better harmonize resources and efforts to 
stimulate global investment in local economies and 
manufacturers.
    The Schneider amendment will also help promote small 
businesses which face particularly high barriers to engaging in 
global commerce. The bill requires State trade promotion 
agencies to survey how well exports from their States are being 
advertised and coordinated with the Department of Commerce.
    The amendment also explicitly includes manufacturers, 
financial service firms, and veteran-owned businesses in a list 
of companies promoted through the State-Federal partnership.
    I applaud the efforts of Representative Chabot, Ranking 
Member Engel, and Chairman Royce to bring this important 
bipartisan legislation before the committee. I urge passage of 
this bill, and I yield back my time.
    Chairman Royce. Any other members seeking recognition on 
the committee?
    Without objection, then, and hearing no further requests, 
the question occurs on agreeing to the items being considered 
en bloc.
    Madam Clerk, we are going to take the vote at this time.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
items considered en bloc are agreed to.
    Without objection, the measures agreed to en bloc, H.R. 
2449; H.R. 1409, as amended; H.R. 1926, as amended; and Senate 
bill 793, as amended, are ordered favorably reported to the 
House, and staff are directed to make technical and conforming 
changes.
    Again, I want to thank Ranking Member Engel and all of our 
committee members for their contributions and their assistance 
with today's markup.
    This committee stands adjourned.
    [Whereupon, at 10:38 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre></body></html>
